No:

IN THE
SUPREME COURT OF THE UNITED STATES

JUNIOR JEAN BAPTISTE,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, JUNIOR JEAN BAPTISTE, pursuant to Sup CT. R. 39.1, respectfully moves for
leave to file the accompanying petition for writ of certiorari in the Supreme Court of the United
States without payment of costs and to proceed in forma pauperis.

Petitioner was previously found financially unable to obtain counsel and counsel was
appointed to represent Petitioner pursuant to 18 U.S.C. ยง 3006A. Therefore, in reliance upon RULE
39.1 and ยง 3006A(d)(6), Petitioner has not attached the affidavit which would otherwise be required
by 28 U.S.C. ยง 1746.

wae a
RICHARD C. KLUGH, ESQ.
Counsel for Petitioner
Courthouse Center
40 N.W. 3rd Street, PH 1
Miami, Florida 33128
Tel. No. (305) 536-1191

Miami, Florida
July 2021
